No.

IN THE
Supreme Court, U.S"
FILED

SUPREME COURT OF THE UNITED STATES

°EC 29 2020
OFFICE OF THE Cl For

GUILLERMINA AGUILAR

— PETITIONER

(Your Name)
vs.
Specialized Loan ServicinQ, LLC. et al

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

SUPREME COURT OF CALIFORNIA CASE NUMBER S263334 (B295836)
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

GUILLERMINA AGUILAR
(Your Name)
6219 CONVERSE AVENUE
(Address)
LOS ANGELES, CA 90001
(City, State, Zip Code)
310-488-3173
(Phone Number)

Received
Jan - 5 2021
mtPREMEC^®

QUESTION(S) PRESENTED

One main question that arise in my mind is regarding in how Attorney's for Defendant
Wells Fargo Bank N. A. litigate in this defendant's favor when in fact Specialized Loan Servicing,
LLC, claims to own the the note in question. Wells Fargo Bank N. A. was the Trustee in the origi
nal Note with G. M. A. C. then G. M. A. C. issued a Full Reconveyance Certificate that the note
was paid in full. This certificate is Appellant Guillermina Auilar's possession. It was presented to
the Court of Appeal for the Second District Division One and Still the court of Appeal ruled in
favor of Defendants Wells Fargo Bank N.A. and Specialized Loan Servicing, LLC. Wells Fargo
Bank N. A. stopped being the trustee with the issuance of the Full Reconveyance Certificate. But
America's Service Company and Specialized Loan Servicing , LLC continued to collect Monthly
Mortgahge Payments from Appellant and SLS has not stopped such collection of Monthly Mortgs
ge payments. When the Loan was originated, it was originated by Wells Fargo Home Mortgage
But Attorneys for Appellees Claims that It was Wells Fargo Bank N. A.

LIST OF PARTIES

[ xl All parties appear inj;he caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
1. Specialized Loan Servicing, LLC
2. America's Service Company
3. Wells Fargo Bank N. A. originally sued as Wells Fargo Home Mortgage

RELATED CASES

NONE

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

SEE ATTACHED

TABLE OF AUTHORITIES CITED
CASES

NONE

STATUTES AND RULES

OTHER

PAGE NUMBER

IN THE
Type text here
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A___ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X| is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was NONE
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including NONE
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was 09/30/2020
A copy of that decision appears at Appendix A_____
[ ] A timely petition for rehearing was thereafter denied on the following date:
---------------------------------, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
NONE

STATEMENT OF THE CASE
Appellant's statements are based on the unfairness of the Judicial system effected on Appellant's
claim. The loan account on appellant's home residence located at 6219 Converse Ave, Los Angele
CA 90001 was paid by a Private Mortgage Insurance policy when G. M. A. C. went bankrupt, out
business in the secondary mortgage market back in 2010. Wells Fargo Bank N. A. as Trustee of th
note was released from the duties as trustee when the note was paid off. America's Service Co. to<
over the note with out right to do so and started collecting monthly mortgage payments without righ
to the collecting of monies from Plaintigg/Appellant Guillermina Aguilar, back in December 2015
without rights sold, transferred the note,

Specialized Loan Servicing, LLC took over collecting Monthly mortgage payments from Appellant,
Guillermina Aguilar, Illegally, on a note that was paid off already.

This is the main argument that has been in the State Superior Court and the Court of Appeal an<
Supreme Court of California. For these reasons Appellant is filing this Petition for Wit of Certiorari

m; r$o
a'jfteffeqqA oo Nlostte

isioitul ©fitTo egsKotetau ait no te?r>d ©ib Kfnsm^e'a a'lneiicoqA

;teg?iA ws J ,svA <?SisvnoQ $*£9 Jr bfiaoot ©onobfe©! emotl alosfteqqa no feuooon fieol ©rif .rnigla
tur. tqi/i/tffed tn*AV .0 .A M .£? nortwyoitoq sonsiuenl sgfctshojft ©isvM s yd fatoq ?bw fQ009 AO
u To odgutT as .A.f-l HnsS ogm^ sfieVV .OfOS nS jtoed Jetbem epoehom yisbnoose - rij ni a&©roeud
-a .oO cohoes ? sobdmA Bo fossq sh# don erti potiw estei-nt eg asftud ©rf} mcB fcsessisi sbv- ©ion
:wi foortfvf qjdsmsf&q

grufeaiSoo botmte bnc eg oo oi ingh hie rtitw ©Ton grit isv©

sm •'©drrmoQ ni #osd ;»j£fiugA sniffnelHuO ln»3l!eqcjA\Beitf iis.,c1 mot» aoinomto gnifcdtioo ©fB oi
.©ten 9HI bondansd ,bios eidgn tucriiivv
Jn&i©qqA rnotf dnomysc} sge&r.ocfn sflntncM gniiosllao iovo xoci OJJ .gniofvtsB mod bssitesooqS
.vbsoi's Bp bisq 3gw tsrtl sicn s no .yifsgsuii mhugA snimidlituf)

,i i

s ir*x>c*A i'OtBicO sdi brm fcuoO '»onsquS efeto artt fu A»;'d gsri fed} insdiogio nisfn ©ril s> eirtr

htnom&O to iiW fet noifito^l airit onslit ai inbifsoqA erroa^si oasrlt lod dtmoKlsO to tiuX> ornaiqoS

REASONS FOR GRANTING THE PETITION
I believe in the American Judicial System and for what it has been made for the American Peopk
Therefore, justice will be served. I feel that I have not been treated justly and fairly by the lower
courts. I do not lunderstand all the confusion created in the legal procedure while my case

CONCLUSION

The petition for a writ of certiorari should be granted. For the reasons cited on the Statements of the
case above and because of a matter of law
that concerns the general public.

Respectfully submitted,

Date: 12/28/2020

